U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 9, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Cimznhca, LLC v. United States, No. 20-1138
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 10,
2021, and placed on the docket on February 19, 2021. The government’s response is now due,
after one extension, on April 21, 2021. We respectfully request, under Rule 30.4 of the Rules of
this Court, a further extension of time to and including May 21, 2021, within which to file a
response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner consents to this further extension.
Sincerely,

Elizabeth B. Prelogar
Solicitor General
cc:

See Attached Service List

20-1138
CIMZNHCA, LLC
USA

LESLIE LEEANN PESCIA
BEASLEY, ALLEN, CROW, METHVIN, PORTIS
& MILES, P.C.
PO BOX 4160
MONTGOMERY, AL 36103
334-269-2343
LESLIE.PESCIA@BEASLEYALLEN.COM

